FIbrE FEdErAl CrEdIT UNION
Interest Charges
your due date will be at approximately 30 days after the closing date. interest charges will accrue on the unpaid portion of
purchases included in the new balance when the entire new balance is not paid in full by the due date shown on the statement.
this “grace period” allows you to avoid interest on purchases for a billing cycle. if you do not pay within the grace period, interest will accrue from the first day of the billing cycle in which payment is due, and on new purchases from the date of purchase.
interest charges will be imposed on cash advances from the date the cash advance is posted to your account until paid. there is
no grace period in which you may avoid interest charges on cash advances.

billing Error rights
What To Do If You Find A Mistake On Your Statement. if you think there is an error on your statement, write to us at: Fibre
Federal Credit union, Po box 1234, longview, wa 98632. in your letter, give us the following information:
• Account information: your name and account number.
• Dollar amount: the dollar amount of the suspected error.
• Description of problem: if you think there is an error on your bill, describe what you believe is wrong and why you believe
it is a mistake.
you must contact us:
• within 60 days after the error appeared on your statement.
• at least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you
think is wrong.
you must notify us of any potential errors in writing. you may call us, but if you do, we are not required to investigate any potential errors and you may have to pay the amount in question.
while we investigate whether or not there has been an error:
• we cannot try to collect the amount in question or report you as delinquent on that amount.
• the charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• while you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• we can apply any unpaid amount against your credit limit.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases. if you are dissatisfied with the goods or services that
you have purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the purchase. to use this right, all of the following must be true:
1. the purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. you must have used your credit card for the purchase. Purchases made with cash advances from an atm or with a check
that accesses your credit card account do not qualify.
3. you must not yet have fully paid for the purchase.
if all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the above address.
while we investigate, the same rules apply to the disputed amount as discussed above. after we finish our investigation, we
will tell you our decision. at that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

FCU-VS01 (8/14)

